               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Monitoring of Government
        Travel Card Transactions in the
                Southern Area

               Management Advisory




                                              August 30, 2013

Report Number DP-MA-13-003
                                                                        August 30, 2013

                                             Monitoring of Government Travel Card
                                                Transactions in the Southern Area

                                                        Report Number DP-MA-13-003



BACKGROUND:
The U. S. Postal Service uses the            Our objective was to determine whether
Government Services Administration           Postal Service travel card coordinators
SmartPay2® Program to administer the         in the Southern Area were effectively
travel card program. Citibank® is the        monitoring government travel card
provider of the travel card for the Postal   transactions.
Service and issues VISA® branded
travel cards to Postal Service               WHAT THE OIG FOUND:
employees for use while on official          The Southern Area travel card
travel. Employees can use the                coordinators were effectively monitoring
SmartPay2 travel card for                    government travel card transactions.
transportation, lodging, and other travel    However, travel card coordinators can
related services when traveling on           improve the monitoring of cash
official business. Postal Service policy     advances. Specifically, we identified 211
states that employees may not use the        instances, totaling more than $53,000,
government travel card for personal          of inappropriate cash withdrawals for
business and limits cash advances to         travel advances from April 2012 through
$50 per day of official travel.              March 2013.

To assist with the administration of the     WHAT THE OIG RECOMMENDED:
travel card program, each Postal             The Southern Area took actions during
Service area and district office has a       the course of our review and therefore,
travel card coordinator. In addition, the    this report does not contain any
travel card coordinators monitor travel      recommendations. Specifically, the
card transactions and identify               Southern Area distributed a Citibank
unauthorized purchases and                   Travel Card Monitoring Standard
transactions that could indicate misuse      Operating Procedure to all travel card
or unusual activity.                         coordinators outlining coordinator duties
                                             and responsibilities. Additionally, the
There were 9,176 government travel           Postal Service provided Citibank
cardholders in the Southern Area as of       Custom Reporting System training to all
March 31, 2013, and 2,462 cardholders        Citibank coordinators. The training
used their travel card in the previous       included new reporting tools to aid travel
12 months. This includes 1,826 cash          card coordinators in monitoring cash
advance transactions for approximately       advance and purchase transactions.
$367,000 and 31,754 purchase
transactions totaling about $6.6 million.    Link to review the entire report
August 30, 2013


MEMORANDUM FOR:            JO ANN FEINDT
                           VICE PRESIDENT, SOUTHERN AREA OPERATIONS




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory – Monitoring of Government Travel
                           Card Transactions in the Southern Area
                           (Report Number DP-MA-13-003)

This report presents the results of our review of Monitoring of Government Travel Card
Transactions in the Southern Area (Project Number 13RG018DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Timothy F. O’Reilly
    Michael L. Barber
    Corporate Audit and Response Management
Monitoring of Government Travel Card Transactions                                                         DP-MA-13-003
 in the Southern Area


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Monitoring of Cash Advances ......................................................................................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Other Impacts ............................................................................................. 7
Monitoring of Government Travel Card Transactions                                              DP-MA-13-003
 in the Southern Area



Introduction

This report presents the results of our review of Monitoring of Government Travel Card
Transactions in the Southern Area (Project Number 13RG018DP000). The objective of
our review was to determine whether U.S. Postal Service travel card coordinators in the
Southern Area were effectively monitoring government travel card transactions. This
review was self-initiated. See Appendix A for additional information about this review.

The Postal Service provides individual government travel cards to designated
employees for use while on official travel. Employees are responsible for all charges
and automated teller machine (ATM) withdrawals. However the use of the government
travel cards is governed by Postal Service policy.1 This includes prohibiting employees
from using the card for personal business.

The Southern Area designated 13 Postal Service employees, one in each district, as
travel card coordinators to monitor the government travel card transactions of
cardholders assigned to the Southern Area. 2 To assist the travel card coordinators in
their duties, Citibank® produces reports showing card activity. As of July 2013, travel
card coordinators are responsible for reviewing Citibank reports for compliance with
policies set forth in Handbook F-15. Using these reports, travel card coordinators are
required to monitor government travel card purchase transactions for non-travel related
activity or potential misuse, cash advances greater than $50 per travel day, and cash
advance or purchase transactions when the employee had not traveled. The travel card
coordinators also examine transactions that indicate potential misuse by reviewing
travel expense reports contained in the Postal Service eTravel3 system to determine if
the transactions are related to official travel.

There were 9,176 government travel cardholders in the Southern Area as of March 31,
2013, and 2,462 cardholders used their travel card in the previous 12 months. This
includes 1,826 cash advance transactions for about $367,000 and 31,754 purchase
transactions totaling about $6.6 million.




1
  Handbook F-15, Travel and Relocation, May 2011.
2
  The Southern Area office is located in Dallas, TX, and has 13 districts (Alabama, Arkansas, Dallas, Fort Worth, Gulf
Atlantic, Houston, Louisiana, Mississippi, Oklahoma, Rio Grande, South Florida, South Georgia, and Suncoast) with
Citibank travel card coordinators.
3
  eTravel is a Web-based system that automates the expense management process. The eTravel system enables
Postal Service employees to manage their business travel expenses; create, review, and submit expense reports;
and, access policy compliance information.
                                                           1
Monitoring of Government Travel Card Transactions                                               DP-MA-13-003
 in the Southern Area



Conclusion

Southern Area travel card coordinators were effectively monitoring government travel
card transactions. However, travel card coordinators can improve the monitoring of cash
advances. Specifically, we identified 211 instances, totaling more than $53,000,
of inappropriate cash withdrawals for travel advances from April 2012 through
March 2013. We consider these cash withdrawals as other impact, see Appendix B.

Monitoring of Cash Advances

Travel card coordinators can improve the monitoring of cash advances. A review of
554 high risk cash advances4 identified 211 cash advances unrelated to official travel or
in excess of the amount allowed by Postal Service policy.5 Specifically, we noted:

   153 cash advances with no related official travel.6

   50 cash advances where employees took cash in excess of the allowable limit of
    ($50 a day or $350 a week).7

   Eight cash advances where employees took their advance more than 5 days before
    the trip started.8

Travel card coordinators were not aware of the indicators that would alert them to this
potential misuse because they were not provided guidance. As a result, we identified
more than $53,000 of inappropriate cash advances from April 2012 through
March 2013. This represents 14 percent of all cash advances taken during this period.
Monitoring travel card transactions, such as cash advances, is important to reduce the
risk of credit card delinquencies or negative publicity when employees use their travel
card for personal reasons. In addition, abuse of the travel card could negatively impact
the Postal Service’s contractual relationship with Citibank.

The Postal Service began corrective actions in May 2013 by conducting nation-wide
training for all travel card coordinators regarding their duties and responsibilities. The
training provides the travel card coordinators access to electronic reports and tools that
will assist in identifying misuse and unusual activity.9 In addition, during our audit, the
Southern Area distributed standard operating procedures for travel card coordinators to
use when monitoring travel card usage for potential fraud or abuse. We believe these
reports, tools, and procedures will enhance the travel card coordinators ability to
4
  We examined all 554 employees from a travel advance report that listed travel advance transactions without an
airfare or lodging charge during the associated travel period.
5
  These cash advance transactions were made by 53 different employees.
6
  Handbook F-15, Section 3-2.4, dated May 2011.
7
  Handbook F-15, Section 4-2.1.2.
8
  Handbook F-15, Section 4-2.3.2.
9
  The Postal Service has access to Citibank online automated tools to monitor cardholder transactions and manage
compliance with Postal Service policies. Citibank refers to these tools as the Program Audit Tool which flags potential
travel card misuse and fraud.

                                                           2
Monitoring of Government Travel Card Transactions                       DP-MA-13-003
 in the Southern Area


monitor travel card transactions including cash advances. Therefore we are not making
any recommendations regarding this issue.

Recommendations

The corrective actions already in progress should correct the issue discussed, therefore,
we made no recommendations in this report.

Management’s Comments

Management reviewed a draft of this report and had no comments or concerns.




                                                    3
Monitoring of Government Travel Card Transactions                                             DP-MA-13-003
 in the Southern Area


                                 Appendix A: Additional Information

Background

The Postal Service uses the Government Services Administration SmartPay2
Program10 to administer the travel card program. Citibank is the provider of the travel
card for the Postal Service and issues VISA travel cards to Postal Service employees
for use while on official travel. The travel card also provides access to ATMs. The Postal
Service established its policies for employees that travel for official business in
Handbook F-15.

Employees can use individually billed11 travel cards for transportation, lodging, and
other travel related services when traveling on official business. Postal Service policy
states that employees may not use their official government travel card for personal
business and limits cash advances to $50 per day of official travel.

To assist with the administration of the travel card program, each Postal Service area
and district office has a travel card coordinator. In addition to providing administrative
support for employees, travel card coordinators monitor and identify unauthorized
purchases (such as purchase of non-travel related items), inappropriate cash advances,
and transactions that indicate misuse or unusual activity charged to the travel card.

Objective, Scope, and Methodology

Our objective was to determine whether Postal Service travel card coordinators in the
Southern Area were effectively monitoring government travel card transactions. To
accomplish this objective:

    We reviewed the VISA IntelliLink12 report for high risk transactions from April 2012
     through March 2013 to identify employees who potentially took ATM cash advances
     while not on official travel. We also tested for employees who withdrew excessive
     amounts of cash (over the allowable $50 per day of official travel), and who made
     cash withdrawals more than 5 days before the start of their travel.

    We reviewed the Citibank transaction history report from April 2012 through
     March 2013 to identify employees who used their travel card for purchases of
     personal items while not on official travel.

    We interviewed all 13 Southern Area travel card coordinators to determine their
     knowledge of the roles and responsibilities associated with monitoring government
     travel card transactions.


10
   Manages a set of master contracts through which agencies, including the Postal Service, can obtain credit cards
for employees to accomplish their mission.
11
   Issued card to postal employee, the card is in their name, and charges are billed directly to them for payment.
12
   A web-based information-services application that allows access to information that can improve misuse detection.

                                                         4
Monitoring of Government Travel Card Transactions                                                 DP-MA-13-003
 in the Southern Area


    We attended the Citibank Custom Reporting System13 training in May 2013. We
     became aware of new reporting options available to aid travel card coordinators
     when monitoring government travel card transactions.

    We used the Postal Service eTravel system to research claims for travel
     reimbursement to determine whether employees were on official business during the
     period they made cash withdrawals and purchases using the travel card.

    We reviewed all cash advances to determine if any were made at gambling
     locations.

We conducted this review from May through August 2013, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 20, 2013, and included their comments where appropriate.

We assessed the reliability of VISA IntelliLink and Citibank data by cross-validating
purchase and advance transactions against official travel recorded in eTravel and also
receiving the responses of district travel card coordinators as additional validation. We
determined that the data were sufficiently reliable for the purposes of this report. We
also accessed the Citibank data by using single sign-on (SSO) technology. We were
satisfied the information systems were adequately protected from unauthorized access
when applications required SSO authentication. We also compared selected
transactions to the eTravel system for accuracy and found the data to be reliable for our
purposes.




13
   The Citibank Custom Reporting System is an online tool available for capturing and managing information related
to card transactions from line-item details to consolidated data at a global level and everything in between. A user will
have access to over 600 data elements and is able to create custom reports.

                                                            5
Monitoring of Government Travel Card Transactions                      DP-MA-13-003
 in the Southern Area



Prior Audit Coverage

                                                          Final          Monetary
                                                         Report           Impact
            Report Title             Report Number         Date        (in millions)
  Travel Expense                      FT-AR-12-014      9/27/2012          None
  Reimbursements and Travel
  Card Usage
  Report Results: Postal Service employees improperly claimed expenses on their
  travel reimbursements and inappropriately used their travel card. Approving
  managers did not have a mechanism to adequately monitor travel card activity.
  Also, the Postal Service did not have clear instructions explaining how to handle
  canceled airfare expenses. As a result, the Postal Service was exposed to
  inappropriate or fraudulent activity that could negatively affect its reputation.
  Management agreed, in principle, with the recommendations.

  Compliance With Travel              FF-AR-11-007         2/9/2011             $1.2
  Policies and Opportunities for
  Cost Savings
  Report Results: Postal Service employees did not comply with prescribed travel
  policies resulting in excessive travel costs for lodging and airfare in fiscal years
  2009 and 2010. We estimated the Postal Service could realize savings over 2 years
  by taking action to curtail employee noncompliance with travel policies. Further, the
  Postal Service did not cancel credit cards issued to former employees, including
  employees listed as deceased in employee records. Management agreed with the
  findings and monetary impact and agreed, in principle, with the recommendations.




                                                    6
Monitoring of Government Travel Card Transactions                                             DP-MA-13-003
 in the Southern Area



                                       Appendix B: Other Impacts

                 Finding                           Impact Category                        Amount
              Monitoring Cash                     Goodwill Branding14                         211
                Advances                                                                   instances
                                                                                           valued at
                                                                                            $53,000

We identified 211 instances, totaling more than $53,000, of inappropriate cash
withdrawals for travel advances from April 2012 through March 2013.




14
  An adverse impact on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential
problem that could negatively impact the Postal Service “brand name.”

                                                          7
